                       Office of Inspector General, USDA
                           Investigation Developments

> January 10, 2006 <

Connecticut Food Distributor Pleads Guilty to Smuggling

On December 15, 2005, a food distribution company and owner pled guilty in a
Connecticut Federal court to a felony count of smuggling. The OIG investigation
disclosed that between 2001 and 2005, the company and owner imported 27,600 pieces
of boneless chicken feet from Thailand that were falsely manifested as jellyfish. The
product was distributed to stores in 11 states. Sentencing is scheduled for March 2006.

Virginia Woman Sentenced, Ordered to Pay $55,661 for Food Stamp and Social
Security Fraud

On December 19, 2005, a woman was sentenced in a Virginia Federal court to serve 18
months in prison, 36 months’ probation, and was ordered to pay $55,661 in restitution.
The joint USDA-OIG and Social Security Administration (SSA)-OIG investigation
disclosed that the woman failed to report her income to the Henrico County Department
of Social Services and SSA. From January 2001 through November 2004, the woman
fraudulently received food stamp benefits and Social Security benefits totaling $55,661.
The woman pled guilty in September 2005.

Former Nebraska State Caseworker Sentenced, Ordered to Pay $78,000 for Welfare
Fraud

On December 16, 2005, a former Nebraska State welfare caseworker was sentenced in a
Nebraska Federal court to serve 24 months in prison, followed by 36 months of
supervised release, and was ordered to pay $78,000 in restitution to the USDA Food and
Nutrition Service. The investigation, worked jointly with the U.S. Department of Health
and Human Services OIG, disclosed that the former caseworker intentionally caused the
payment of unauthorized welfare benefits, which included Food Stamp benefits, to at
least 71 unqualified recipients, resulting in a loss of $181,235. The former caseworker
pled guilty in March 2005.

Export Company Owner in North Carolina Pleads Guilty to Fraudulent Cotton
Export Scheme

On December 20, 2005, a company owner pled guilty in a North Carolina Federal court
to conspiracy to defraud the Commodity Credit Corporation (CCC) and Export Credit
Guarantee Program. The fraud amount in this case is approximately $1.7 million. The
OIG investigation, conducted with the FBI and the U.S. Postal Inspection Service,
disclosed that the owner and other individuals committed theft of U.S. Government funds
by fraud involving the Supplier Credit Guarantee Program of the CCC, Foreign
                                                                                        2

Agricultural Service (FAS). The fraudulent scheme involved, among other activities,
exporting cotton product commodities to merchants/importers in Mexico by
misrepresenting cotton products and inflating the prices, thereby netting the exporter an
inflated amount upon default by the importer. The company inflated cotton prices to
increase the USDA guarantee payment price, misrepresented cotton products in
name/grade, forged documents, submitted false documents to FAS to obtain cotton export
payments, and gave the appearance of a legitimate foreign affiliate directing the
purchases. The investigation also determined that the owner used a similar scheme to
defraud a Texas bank out of $1.8 million. Sentencing has not been scheduled.


Michigan Producer Sentenced, Ordered to pay $199,060 for Conversion of Secured
Crops

On December 12, 2005, a producer from Unionville, Michigan, was sentenced in a
Michigan Federal court to serve 5 months in prison, 5 months of home confinement
followed by 36 months of supervised release, and was ordered to pay $199,060 in
restitution. The OIG investigation disclosed that from January 2001 to November 2001
the producer sold secured crops without FSA’s approval and received net proceeds of
approximately $194,300. The producer did not apply proceeds from the sale of
approximately 24,000 bushels of corn and 20,000 bushels of soybean to his operating
loan as required. The producer pled guilty to one count of conversion in August 2005.


North Carolina Insurance Agent Sentenced, Ordered to Pay $8.15 Million for Crop
Insurance Fraud

On December 8, 2005, an insurance agent was sentenced in a North Carolina Federal
court for participating in a scheme to defraud the Federal Crop Insurance Corporation and
several private insurance companies. The insurance agent was sentenced to 27 months in
prison followed by 36 months of supervised release and was ordered to pay $8.15 million
in restitution. The investigation disclosed that the insurance agent and five other
individuals illegally obtained more than $12 million in crop insurance payments from
1997 to 2003. To date, four subjects of this investigation have received sentences
ranging from 14 months to 76 months in prison and were ordered to pay a total of
$12,636,728 in restitution. OIG conducted this investigation with the North Carolina
State Bureau of Investigation, Henderson County Sheriff’s Office, and agents from the
Internal Revenue Service.
                                                                                         3


South Dakota Couple Sentenced, Ordered to Pay $1 Million for Farm Program
Fraud

On December 6, 2005, a husband and wife from Rapid City, South Dakota, were
sentenced in the District of South Dakota for conspiracy to defraud the CCC and the Risk
Management Agency (RMA). The couple was sentenced to each serve 37 months in
Federal prison followed by 36 months of probation, and were ordered to pay a total of $1
million in restitution. The OIG investigation disclosed that the couple conspired with
three other individuals to make false claims/statements to the Farm Service Agency
(FSA) in order to circumvent payment limitations and obtain FSA/RMA program
payments. As a result, the husband and wife obtained $1.6 million in unauthorized
payments from 1996 to 2001. The husband, wife, and their co-conspirators were charged
in January 2004 in South Dakota with conspiracy, false statements, and wire fraud.


Former Housing Director in Mississippi Pleads Guilty to Embezzling Self-Help
Housing Funds

On December 2, 2005, a housing director pled guilty in a Mississippi Federal court to
embezzling Rural Development (RD) self-help housing funds totaling $69,634.
Sentencing of the housing director is scheduled for March 2006. The OIG investigation
disclosed that the housing director and two secretaries embezzled RD and HUD funds
intended for low income recipients. The two secretaries pled guilty in May 2005. In
July 2005, one secretary was sentenced to 36 months of probation and ordered to pay
$8,488 in restitution, and the second secretary was sentenced to 60 months’ probation and
ordered to pay $11,226 in restitution.


New Jersey Business Owner Sentenced, Agrees to Pay $1.1 Million for Fraud
Involving Federal Small Business Grants

On November 9, 2005, a business owner was sentenced in a New Jersey Federal court to
serve 12 months’ home confinement and 60 months’ probation for mail fraud and income
tax evasion. He entered into a civil settlement and agreed to pay $1,111,586 in restitution
to several Federal agencies and $288,414 in interest and penalties resulting from his
income tax evasion. The OIG investigation, conducted jointly with multiple Federal
agencies, disclosed that the business owner applied for grants from several Federal
agencies through the Small Business Innovation Development Act and was awarded
multiple grants totaling $1.4 million, including a $65,000 Small Business Innovation
Research grant from USDA. The business owner submitted the same research proposal
to each Federal agency and submitted results he had obtained from prior research. The
business owner pled guilty to mail fraud and income tax evasion in June 2004.
